             U. S. POSTAL SERVICE
        OFFICE OF INSPECTOR GENERAL




U. S. Postal Service

Electrification of Delivery Vehicles

               August 28, 2009
Electrification of Postal Service                                                                                DA-WP-09-001
 Delivery Vehicles




Table of Contents

EXECUTIVE SUMMARY ................................................................................................. 3
Operational Feasibility of Electric Vehicles...................................................................... 3
Opportunity to Demonstrate Vehicle to Grid Technology ................................................ 4
Economic Feasibility of Electric Vehicles ........................................................................ 4
   I.    BACKGROUND ..................................................................................................... 6
          Postal Service Current Fleet ................................................................................. 6
          Electric Vehicles ................................................................................................... 6
   II.    Operational Feasibility of EVs for the Postal Service............................................ 7
          Batteries and Charging ......................................................................................... 7
          Electric Vehicle Purchase Considerations ............................................................ 9
          Vehicle to Grid Technology................................................................................. 10
   III. Economic Feasibility for the Postal Service ........................................................ 12
          Economic Impact of Purchasing 3,000 Vehicles ................................................. 12
          Modeling Assumptions ....................................................................................... 13
          Net Costs for EV Purchase ................................................................................. 13
          Operating Variances ........................................................................................... 13
          Charging Stations ............................................................................................... 14
           V2G Revenue .................................................................................................... 14
           LLV Replacement Costs Avoided ...................................................................... 14
   IV. Postal Service as a National Laboratory for Electric Vehicle Testing .................. 16
   V. Funding ............................................................................................................... 18
APPENDIX A: WORK PERFORMED AND ADDITIONAL STUDIES IN THIS AREA .... 20
APPENDIX B: CASH FLOW SCENARIO – 3,000 VEHICLES.............................................. 22




                                                               2
Electrification of Postal Service                                                                      DA-WP-09-001
 Delivery Vehicles




                                      U.S. Postal Service
                             Electrification of Delivery Vehicles

EXECUTIVE SUMMARY

With a large geographically dispersed vehicle fleet and short delivery routes, the Postal
Service makes a particularly interesting national laboratory for testing technological
advancements of electric vehicles (EVs) sought by the President through the
Department of Energy (DOE). The Office of the Inspector General (OIG) conducted this
study on the feasibility of EVs1 in the Postal Service in response to a request from
Congressman José E. Serrano, Chairman, Subcommittee on Financial Services and
General Government, Committee on Appropriations. The primary objective of the study
was to assess the operational and economic feasibility of moving the Postal Service’s
delivery fleet to electric vehicles. In summary, use of electric vehicles for Postal Service
deliveries is operationally feasible and could provide a valuable opportunity for the
nation to test EV technology. Due to the Postal Service’s current financial distress,
government funds and vehicle to grid (V2G) revenue would likely be needed to make
this transition economically feasible.

Operational Feasibility of Electric Vehicles
An EV is an alternative fuel automobile that uses an electric motor for propulsion, in
place of more common propulsion methods such as the internal combustion engine.
EVs are commonly powered by on-board battery packs, and as such, are referred to as
battery electric vehicles.

Our evaluation determined that broad use of EVs in the Postal Service delivery fleet
would be operationally feasible. Current EV technology would work well with the
average mail delivery driving distance of approximately 18 miles per day. Previous
delivery operations tests under favorable environmental conditions within California
have shown that the EV performance levels were adequate for mail delivery ranges of
up to 40 miles a day and battery technology has advanced considerably since then
resulting in significantly increased driving distance ranges. Only about 3 percent of the
delivery fleet has driving distances that exceed that daily distance.

Because the government is currently making investments to advance battery
technology, we suggest the Postal Service phase in any electrification of its fleet so it
can capture future benefits before broad implementation. One area that should be
further explored is how effectively EVs operate under adverse environmental conditions,
such as very low winter temperatures.


1
 One type of EV is the Battery Electric Vehicle. We focused on Battery Electric Vehicle purchases in this paper
because battery ranges cover the vast majority of delivery routes.


                                                         3
Electrification of Postal Service                                                                    DA-WP-09-001
 Delivery Vehicles




Opportunity to Demonstrate Vehicle to Grid Technology
V2G technology establishes a system in which battery stored electricity or capacity can
be sold to power wholesalers when electric vehicles are ―plugged-in‖ or not in use for
mail delivery. Alternatively, when vehicle batteries need to be fully charged, electricity
from the power grid can charge the battery. Since most of the Postal Service’s 146,000
delivery vehicles are parked from approximately 5:00 p.m. to 8:00 a.m., the agency
could use their batteries as grid regulators when they are plugged into the grid. This
would stabilize the electrical grid and, as a result, wholesalers who coordinate the
movement of electricity would be willing to pay fees for regulation services.

Currently, about 20 percent of the Postal Service delivery fleet is in an area which offers
V2G. Our discussions with industry leaders during this project indicate that in the next 2
to 5 years, there will be additional opportunities for V2G in other areas of the country as
stimulus funding encourages this type of smart grid application. As such, the Postal
Service should test and deploy EVs in geographical areas that offer V2G.

Economic Feasibility of Electric Vehicles
The Postal Service’s difficult financial condition requires it to prioritize limited capital
funds available. The Postal Service expects capital investments to generate a high
return and have a short payback period – at least thirty percent and fewer than three
years, respectively. We measured four economic scenarios for using electric vehicles in
delivery operations. One of the four scenarios offers an opportunity to generate a high
return in a short period. In this scenario, electrification of the Postal Service delivery
vehicles can occur if the agency obtains significant federal government funds. The
other scenarios become economically attractive if technology costs decline, additional
funds are obtained, or the Postal Service’s financial situation improves.

Chart 1 provides the economic outcomes for purchasing2 3,000 delivery vehicles. It
shows that without assistance or V2G revenue the Postal Service would not realize its
required rate of return. If, however, the upfront capital cost is overcome by participation
in DOE-funded demonstration programs and V2G revenue is captured, the return
increases to 63.2 percent with the agency breaking even within the first 2 years that
EVs are in operation.3 Funding specifically targeting Postal Service mail delivery
vehicles would likely be necessary to create an economic environment that provides
incentives for the Postal Service to move into a leadership position with EV technology.




2
  We assumed the Postal Service’s approach would be to purchase new electric vehicles rather than convert existing
delivery vehicles to electricity, due to the age of the delivery vehicles.
3
  We estimated $15,500 is eligible for DoE funding (50 percent of total costs less battery costs).




                                                        4
             Electrification of Postal Service                                                                 DA-WP-09-001
              Delivery Vehicles



                                             Chart 1. Economic Outcomes – 3, 000 Vehicles

Decision                 Year           0         1      2       3      4       5           6     7      8       9          10   Total
                                 ($76.4)     $8.6      $8.7    $8.8   $8.9   ($10.1)   $9.1     $9.3   $9.4   $9.5     $9.6      -($4.5)
Postal Service Purchases
and Maintains Vehicles,                                                                                  Payback > 10 Years
Without Government
                        4                                                                                    IRR = -1%
Funds or Grid Revenue

                                 ($69.5)     $15.5 $15.6 $15.7 $15.8 ($3.2)            $16.1 $16.2 $16.3 $16.4 $16.6             $71.6
Postal Service Purchases
and Maintains Vehicles,                                                  Payback = 5 .6 Years
Without Government
Funds But Generates Grid                                                    IRR = 15.3%
Revenue

                                 ($29.9)     $8.6      $8.7    $8.8   $8.9   ($10.1)   $9.1     $9.3   $9.4   $9.5     $9.6      $42
Postal Service Purchases
and Maintains Vehicles                                                Payback = 5.5 Years
With Available DoE                                                       IRR = 19.9%
Program Grants


                                 ($23.0)     $15.5 $15.6 $15.7 $15.8 ($3.2)            $16.1 $16.2 $16.3 $16.4 $16.6             $118
Postal Service Purchases
and Maintains Vehicles                           Payback < 2 Years
with Grid Revenue, and                             IRR = 63.2%
DoE Program Grant

Decision                 Year           0         1      2       3      4       5           6     7      8       9          10   Total

             **The internal rate of return (IRR) is a rate of return used in capital budgeting to measure and compare the
             profitability of investments.




             4
                 Dollars in millions.



                                                                        5
Electrification of Postal Service                                                                     DA-WP-09-001
 Delivery Vehicles




      I.   BACKGROUND

EVs have been around for more than 100 years but have not become part of
mainstream transportation because of cost and distance limitations. Today, EV
technology offers promising opportunities to not only save on gasoline costs but also to
manage recharging of electrical fleets remotely and reduce maintenance costs and
carbon footprints while generating revenue from the power grid.

Postal Service Current Fleet
The U.S. Postal Service’s current fleet of more than 219,000 vehicles includes
approximately 146,000 delivery vehicles,5 the vast majority called long-life vehicles
(LLVs). LLVs were produced as early as 1987 and average about 10 miles per gallon. 6
The vehicles are right-hand drive, because drivers deliver numerous mailpieces to
curbside mailboxes, typically driving in the direction of prevailing traffic.
Illustration 1 – Long-Life Vehicle




The age of Postal Service delivery vehicles range from 8 to 22 years.



Electric Vehicles
Our analysis focused on EVs that use electric motors and motor controllers instead of
internal combustion engines for propulsion.7 These vehicles use chemical energy
stored in rechargeable battery packs to power the motor.




5
    LLVs and Flex Fuel Vehicles.
6
  LLVs combine a purpose-built aluminum body built by Grumman, a General Motors chassis based on a Chevrolet
S-10 pickup truck, and either a 2.2-liter engine or a 2.5-liter piston engine.
7
  Other configurations use both electric motors and an internal combustion engine (hybrids) and are not considered
pure EVs because they also consume some fuel.


                                                         6
Electrification of Postal Service                                                                     DA-WP-09-001
 Delivery Vehicles




     II. Operational Feasibility of EVs for the Postal Service

We studied the operational feasibility of current EV technology and found that
large-scale use of an electric fleet of delivery vehicles within the Postal Service is
feasible. A key aspect of the Postal Service’s delivery fleet that makes it a good
candidate for EV technology is the relatively short delivery routes that average
approximately 18 miles a day. Additionally, delivery routes have regimented operating
hours and centralized base locations. The stability of the operational workhours means
Postal Service vehicles will be delivering mail during peak load on the electrical grid8
and can charge at the lowest rates during off-peak hours. The delivery vehicles also
require stop-and-go driving at low speeds which creates excellent opportunities for
regenerative breaking to recapture energy.9 The Postal Service delivery vehicles
currently attain approximately 10 miles per gallon on average, making fuel a large
expense for the Postal Service.

Previous Postal Service demonstrations of EVs have been successful. In 1995,10 the
Postal Service tested the feasibility of achieving maximum cost effectiveness for six
converted electric LLVs in Merrifield, VA and Torrance, CA. The agency collected and
analyzed 8 months of data and found the electric engine had a distribution of power
comparable to a typical internal combustion engine with a multi-speed transmission. In
another demonstration conducted in 2001 using 500 Ford EVs,11 Southern California
Edison conducted baseline performance and accelerated reliability tests for the Postal
Service. The EVs met Postal Service specifications for all requirements except meeting
a 50-mile distance requirement. Actual ranges achieved were up to 42 miles.

The following sections detail the most critical considerations in our analysis and identify
issues that need further study during the early stages of an EV deployment.

Batteries and Charging
The battery is the single most important contributor to the cost and performance of
electric vehicles, thus, it offers the greatest challenge in a large-scale EV deployment.
As such, we focus much attention on the range, cost, life, warranty issues, and
environmental limitations of vehicle batteries. Batteries are manufactured and priced by
kilowatt hour (KWh) size and a 20 KWh battery provides about 40 miles of driving
distance for electrical vehicles.




8
  Periods in a day when energy customers use maximum amounts of electricity, such as, 5:00 p.m. to10:00 p.m.
9
  Regenerative braking is a mechanism that reduces vehicle speed by converting kinetic energy into a storable form.
The recaptured energy is stored for future use or fed back into a power system for use by other vehicles.
10
   Feasibility Demonstration of an Electric Postal Delivery Vehicle, August 1995, Section 3.
11
   Demonstration and Evaluation of USPS Electric Carrier Route Vehicles, December 2001, Section IV – Pg. 24.


                                                         7
Electrification of Postal Service                                                                  DA-WP-09-001
 Delivery Vehicles




Range Current battery technologies vary in range and cost but meet the average daily
driving distance of 18 miles for mail delivery operations (see Chart 2 below for the
driving distances of the delivery fleet). Further, 96 percent of driving distances are less
than 40 miles per day. Electric vehicle battery companies indicate they are able to
produce batteries with up to a 40-mile range and can provide range extenders if
needed.

                               Chart 2 – Distance Ranges for Delivery Vehicles

                     Miles Per Day        Delivery Vehicle Count                Percent of Count
                            0-4                                1,733                      1.18%
                            5-9                               22,379                     15.27%
                           10-14                              40,920                     27.92%
                           15-19                              36,232                     24.72%
                           20-24                              21,977                     14.99%
                           25-29                              10,486                      7.15%
                           30-34                               4,909                      3.35%
                           35-39                               2,429                      1.66%
                           40-44                               1,461                      1.00%
                           45-50                                892                       0.61%
                            >50                                2,442                      1.67%
                        Unknown                                 706                       0.48%
                           Total                             146,566                       100%
              Source: Automated Vehicle Utilization System October 2008-April 2009

Cost Nickel Metal Hydride and Lithium Ion are two types of batteries used in EVs, with
costs ranging up to $1,500 per KWh. Manufacturers indicated that battery prices may
come down over the next 2 years. We note the DOE has funded research to advance
battery performance and lower costs.

Environmental Conditions/Battery Life Environmental conditions — namely
temperatures and terrain — could affect performance and additional testing is needed to
determine possible impacts on performance within the Postal Service fleet. For
example, extreme weather conditions may affect battery life and the distance a vehicle
may drive. According to Idaho National Laboratories, temperatures of 68 to 104
degrees Fahrenheit (F) are the optimal operating temperature range. Testing by
Canada Post identified performance degradation at around -4 degrees F. Battery
manufacturers indicated limited battery performance as low as -22 degrees F.
Temperature management systems are available to control some environmental impact
on batteries; however, these systems draw energy and will affect the distance expected
from the batteries. Postal Service testing of these extremes would identify geographic
limitations and further reinforces a phased-in deployment approach.




                                                         8
Electrification of Postal Service                                                                DA-WP-09-001
 Delivery Vehicles




Warranty Issues Battery warranties vary among vendors and there is no consensus on
how long or how much of the battery is covered under warranty. As such, standards are
still evolving including those covering the impact of V2G on battery life. For example,
some manufacturers cover the entire battery under warranty while other manufacturers’
warranties require the purchaser of the battery to follow operating guidelines for
warranty coverage. The Postal Service would have to ensure battery warranties would
address the risk of premature battery replacement and any possible effects of V2G
technology to maximize expected returns.

Grade/Load As it pertains to terrain, battery performance degrades with the degree of
incline in which the vehicle is used. Previous operational tests the Postal Service
conducted indicated EV performance met requirements, including gradeability, set at a
25 degree incline with maximum payload. The individual routes would need to be
evaluated to ensure they don’t exceed gradeability.

Charging Electrical wholesalers indicated that sufficient power exists to charge
electrical vehicles during non-peak demand periods. As such, Postal Service facilities
would incur little or no additional power infrastructure costs. Limited analyses of several
facilities supporting delivery operations corroborate the assertion that facilities are able
to support electric vehicle loads during off-peak hours. However, management at each
delivery installation would need to verify this assertion.

Electric Vehicle Purchase Considerations
The current LLV provides a platform specifically designed for the unique character of
postal delivery services. Further, this platform has been adapted and optimized through
many years of use. One option for the Postal Service would be to convert the current
LLV fleet to EVs. However, the age of the current fleet (see Chart 3) would likely result
in continuing increases in maintenance cost to remain operational and eventual
replacement costs are expected during an EV investment period.12

                                      Chart 3 – Age of Delivery Fleet

 Vehicle Year            Count      Percent of Total       Age/Years                Remaining Life
                                                                               (24 Years Purchased Life)
         87                6,818               4.65%            22                         2
         88               17,060              11.64%            21                         3
         89               17,232              11.76%            20                         4
         90               17,222              11.75%            19                         5
         91               17,716              12.09%            18                         6
         92               17,785              12.13%            17                         7
         93               18,121              12.36%            16                         8
         94               16,889              11.52%            15                         9
         00                8,170               5.57%             9                        15
         01                9,553               6.52%             8                        16
Total                    146,566                100%
Source: Vehicle Management Accounting System

12
     Carrier Route Vehicle Fleet – Renewal/Replacement Alternatives, Booz Allen Hamilton, September 2005.



                                                       9
Electrification of Postal Service                                              DA-WP-09-001
 Delivery Vehicles




In comparison, purchasing a new EV from the outset would assure better performance
in advance and would more closely align with the vehicles that EV manufacturers may
be developing for general use. However, the Postal Service would need to determine
whether the interior space in a new EV is suitable for mail delivery or would require
alterations.

Vehicle to Grid Technology
V2G describes a system in which stored battery electricity or capacity can be sold to
power wholesalers when electric vehicles are ―plugged-in‖ or not in use for mail delivery.
Alternatively, when vehicle batteries need to be fully charged, they can draw electricity
from the power grid. Since most Postal Service vehicles are parked from approximately
5:00 p.m. to 8:00 a.m., the agency could use their batteries as regulators when they are
plugged into the grid. Regulation helps balance minor electrical variations on the grid
by correcting short-term changes in electricity use that might affect the stability of the
power system. It helps match generation and load and adjusts generation output to
maintain the desired frequency. As a result, wholesalers who coordinate the movement
of electricity are willing to pay fees for regulation services.

The investment in EVs could present some unique revenue opportunities for the Postal
Service as an early adopter of V2G technology. As presented in Illustration 2, there are
a number of Regional Transmission Organizations. According to one operator, PJM
Interconnection (PJM), if the Postal Service invests in EVs, it would be able to generate
revenue by using battery capacity to level the electric load on its grid. Specifically,
organizations would pay the Postal Service for allowing EV batteries to regulate minor
fluctuations on the power grid. The Postal Service receives payments whether or not its
batteries are called upon to download or upload a small amount of power.
         Illustration 2. Regional Transmission
                      Organizations




                                                 10
Electrification of Postal Service                                                                 DA-WP-09-001
 Delivery Vehicles




To generate grid revenue in PJM’s territory, the Postal Service or an aggregator must
provide, at a minimum, 67 vehicles with 1 megawatt (MW) of capacity within the grid. In
PJM’s territory, the Postal Service uses 30,060 LLVs to deliver mail. Chart 4 shows
potential vehicle to grid revenue in PJM’s territory.

                  Chart 4 – Revenue Opportunities Associated with Vehicle to Grid

        Number
                        Mega Watt
           of                                           Potential Annual Revenue
                          Hour
        Vehicles
              67                      1                                                        $154,657
           1,000                     15                                                      $2,308,320
           3,000                     45                                                      $6,924,960
          30,060                    451                                                     $69,388,099

Although annual V2G revenue ($2,308 per vehicle) would help defray costs of EVs in
the PJM territory, other energy companies13 indicated that V2G technology is in the
research phases and would not be available for another 2 years. As such, the Postal
Service should test and deploy EVs in geographical areas that offer V2G and negotiate
revenue contracts accordingly.




13
     New York Independent System Operator (ISO), Midwest ISO, Southern California Edison.



                                                        11
Electrification of Postal Service                                                DA-WP-09-001
 Delivery Vehicles




     III. Economic Feasibility for the Postal Service

Even with the technology advances of recent years for electric vehicles, the initial
investment costs to purchase new EVs would be sizable. The Postal Service is
currently in the midst of an economic crisis and does not have capital funds easily
accessible to spend on such an endeavor. Thus, without extensive funding by the
federal government or private entity partners, it is not currently economically feasible for
the Postal Service to do a broad fleet purchase.

However, there are potential funding options that may be available for demonstrating
the application of new energy saving technologies. Additionally, if the Postal Service
could incorporate the use of V2G technology into an electrification effort, opportunities
exist to offset these costs. This section explores a limited economic analysis of a
smaller scale purchase effort. The final section of the paper explores possible funding
options for the Postal Service or its partners.

Economic Impact of Purchasing 3,000 Vehicles
Because battery technology is rapidly evolving and about 6,800 LLVs are approaching
the end of their service life, we believe it would be prudent for the Postal Service to
phase in a limited number of EVs. This would determine whether purchasing a large
fleet is possible and whether V2G opportunities are realistic to pursue. Additionally,
investment requirements for a limited deployment would be lower and perhaps easier to
address through grants or partnerships with industry.

Our modeling assumed a pilot investment in 3,000 EVs and, generally, the results are
scalable if a larger test is desired. We analyzed four different scenarios for a purchase
of existing LLVs to assess economic feasibility. Only one of these scenario meets the
Postal Service’s investment requirement for a high return and short payback period. In
this scenario, the Postal Service would need to obtain outside funding. A summarized
cash flow for this scenario is presented at the end of this section in Chart 5 and a
detailed cash flow statement is provided in Appendix B.




                                             12
Electrification of Postal Service                                                                         DA-WP-09-001
 Delivery Vehicles




Modeling Assumptions
The primary factors used in this economic analysis include net costs for EV purchase,
operating variances, costs for charging stations, V2G revenue, and LLV replacement
cost avoidance. Based on the work performed, as outlined in Appendix A, we believe
that these assumptions are reasonable at this time, although future developments or
breakthroughs in the EV and battery fields could impact them.

Net Costs for EV Purchase
Generally, the purchase price for a new EV is optimal when there is a commitment for a
large order. In this case, the median price vehicle manufacturers provided was $40,000
per EV. Our assumption in the economic analysis is that the Postal Service could use
possible government funds to assist in the purchase effort. To demonstrate the benefits
of a smart grid, DOE grants provide funding for 50 percent of program costs not
including battery costs. We estimated $15,500 per vehicle would be eligible for
government funding. As such, net capital requirements for acquiring 3,000 EVs are
estimated at $73.5 million.

Operating Variances
Operating variances are expected to provide an additional $75.2 million over 10 years.
Operating variances include maintenance, fuel, replacement battery, and training and
contingency factors.


     Maintenance Reductions
     In FY 2008, the Postal Service spent about $400 million to maintain its fleet of
     delivery vehicles. In our analysis, we assumed the agency could reduce current
     maintenance costs up to 50 percent by transitioning to EVs.14


     Projected Fuel Savings
     Industry information indicates that a reasonable assumption for gasoline costs per
     vehicle mile into the future would be approximately 33 cents per mile (using a rate of
     $3.27 a gallon) and electric costs per mile would be 5 cents — a difference of
     approximately 28 cents. Our analysis for a full year indicates that about $1,500 in
     savings per vehicle per year is possible if gasoline prices are in the $3-$4 a gallon
     range.




14
   This is based on Southern California Edison realizing a 50 percent maintenance reduction for its electrical vehicle
fleet.


                                                          13
Electrification of Postal Service                                                DA-WP-09-001
 Delivery Vehicles




    Replacement Battery Costs
    Because battery life has not yet been fully tested in the Postal Service environment,
    we assumed a battery warranty that would cover 5 years of use, and a resulting
    battery replacement after 5 years, in our 10 year costing analysis. The total cost for
    replacing batteries is $19.1 million. As battery technology improves, costs are
    expected to decrease and life and range are expected to increase.

    Training and Contingencies
    We included $750,000 for the cost of training maintenance personnel. We also
    included a 3 percent factor (or $127,000) for unexpected operational contingencies.

Charging Stations
Because there is not enough capacity to charge all vehicles simultaneously at some
Postal Service facilities, smart charging systems will be required to stage and monitor
charging throughout the off-peak hours in those facilities. The net cost for 3,000 smart
charging stations, installation, and training is about $16.8 million. The technology for
charging stations is likely to improve which could result in reduced costs.

V2G Revenue
We used the data we received from PJM Interconnection to estimate the revenue
potential for implementation of V2G technology in our modeling for the 3,000 test
vehicles. For the V2G segment of the analysis we assumed the Postal Service would
generate $76.1 million in revenue over the life of the investment. The Postal Service
would need to work with PJM to assure commitment to the revenue period.

LLV Replacement Costs Avoided
We offset the EV purchase price by a replacement cost of $19,000 as the life of current
delivery vehicles are expiring. A 2005 study of delivery vehicle replacement conducted
for the Postal Service by an outside management consulting firm concluded that
replacing the current LLV as soon as possible was the most cost effective and
environmentally friendly option.




                                             14
Electrification of Postal Service                                                            DA-WP-09-001
 Delivery Vehicles



        Chart 5 – Economic Outcome for the Purchase of 3,000 Battery Electric Vehicles
                       Government Funding and Grid Revenue Realized


                                                                                     Upfront Capital
EV Purchase – 3,000 Vehicles                                  Total – Years 0-10      Requirement

All-Battery (EV)
     Total purchase cost                              -               $120,000,000         $120,000,000
 Government Funding                                   +                $46,500,000
 Net Purchase Cost to Postal
Service                                               =                $73,500,000


Operating Variances
     Projected Fuel Savings                           +                $43,254,274
     Maintenance Savings                              +                $51,937,894
     Replacement Battery - Year 5                     -                $19,106,233
     Training and Contingencies                       -                   $877,174             $750,000
Subtotal Operating Variances                          =                $75,208,762


Charging Stations
Net installation Cost to Postal Service               -                $16,500,000          $16,500,000
Training                                              -                   $250,000             $250,000
        Subtotal Charging Stations                    =                $16,750,000

V2G Revenue                                           +                $76,164,000


Net Cash Flow Over 10 Years                           =                $61,122,762

LLV Replacement Cost Avoidance                        +                $57,000,000


Net Amount                                            =               $118,122,762         $137,500,000

                    15
Present Value                                                          $70,537,585
Internal Rate of Return                                                    63.2%




15
     Discounted at 7 percent – cost of capital plus risk factor.



                                                              15
Electrification of Postal Service                                                  DA-WP-09-001
 Delivery Vehicles




     IV. Postal Service as a National Laboratory for Electric Vehicle Testing

In March 2009, President Barack Obama toured a California electric car plant and
announced a $2 billion grant program to develop electric vehicles. He stated, "we can
remain one of the world's leading importers of foreign oil, or we can make the
investments that will allow us to become the world's leading exporter of renewable
energy. We can let climate change continue to go unchecked, or we can help stem it.
We can let the jobs of tomorrow be created abroad, or we can create those jobs right
here in America and lay the foundation for our lasting prosperity."

The Postal Service could serve as a national laboratory for testing of electric vehicles.
Its position in the market place as well as its expansive delivery network provides a
unique opportunity to test electric vehicles. Several factors make the Postal Service
fleet an interesting national laboratory, including:

         A large vehicle fleet that is geographically dispersed for relatively short mail
         delivery routes. The delivery fleet is aging and the Postal Service will have to
         replace them to avoid excessive maintenance costs.

         High potential economic value due to off-peak charging requirements and current
         low miles per gallon vehicles.

         Experience with electrical vehicles in operations.
The Postal Service owns and operates the largest civilian vehicle fleet in the world
including approximately 146,000 vehicles used for mail delivery. The Postal Service
reaches every household in geographically diverse regions which provides for testing in
many different climate and terrain conditions. Additionally, the Postal Service has a
facility in most communities and EVs used as mail delivery vehicles would have high
visibility in the communities they serve.

Other possible broader benefits could include creation of jobs, building strategic
partnerships among industry leaders, leveraging possible emission trading changes,
and influencing industry standards.

         Creation of jobs – Although there is limited quantifiable data on job creation for an
         investment in EVs, American electric vehicle manufacturers would likely have to
         expand U.S. capacities to accomplish a large purchase effort. One major
         American automobile manufacturer has indicated they would retool an idle plant if
         the Postal Service decides to order new EVs.

         Partnerships – Automobile manufacturers have worked with the Postal Service on
         electric, natural gas, and flex fuel vehicles and are working with the Postal Service
         on other testing efforts such as building hydrogen cell vehicles. These
         manufacturers have expressed an interest in partnering with the Postal Service to


                                               16
Electrification of Postal Service                                                   DA-WP-09-001
 Delivery Vehicles




          produce new electric vehicles. Additionally, battery manufacturers are interested
          in working with the Postal Service to equip the EVs with batteries. The battery
          manufacturers indicated that firm commitments would enable them to increase
          their production capacities. Utility companies are also interested in working with
          the Postal Service to further vehicle to grid capabilities.

          Emissions Trading – Emissions trading is an innovative approach to reducing
          pollution. The government sets an overall cap on emissions and creates
          allowances, or limited authorizations, to emit up to the level of the cap. Entities
          are free to buy or sell allowances or bank them to use in future years. Entities
          comply with the program by holding enough allowances to cover their emissions.
          If entities emit more than their emission cap, they can purchase allowances to
          cover the excess. One bill before Congress would impose trading limitations on
          emissions of greenhouse gases that contribute to climate change. The Energy
          Act of 200916 targets greenhouse gas reductions by phasing in emissions caps.
          Each covered entity would receive emission "allowances" worth 1 ton of carbon
          dioxide and could trade them. Legislation may qualify the Postal Service as a
          covered entity to participate in selling credits if electric vehicles reduced carbon
          tons below the established baseline.

          Industry Standards – Currently, V2G technologies do not have industry standards.
          The Society of Automotive Engineers is working on a vehicle to grid standards
          process and the National Institute of Science and Technology has a group that is
          working on smart grid technologies. Postal Service testing of V2G could advance
          industry standards.




16
     H.R. 2454, American Clean Energy Security Act of 2009.



                                                         17
Electrification of Postal Service                                                DA-WP-09-001
 Delivery Vehicles




     V. Funding

One of the main challenges impacting project funding is the Postal Service’s financial
outlook. For fiscal year 2009, the Postal Service is currently looking at a shortfall of
approximately $7 billion, sharply limiting its capital spending and its ability to make any
substantial investment in EVs. Given this constraint, we researched possible available
funding sources that could support an EV purchase. Our proposal assumes an initial
capital requirement of about $138 million.

There are currently no funding options specifically tailored for electrifying Postal Service
vehicles. If available, tailored funding could pay for all vehicles and initial supporting
costs and provide for a significant return on investment. If tailored funding is not
available, there are other sources the Postal Service might use to supplement and/or
offset an EV investment and pay for infrastructure costs. However, one constraint
required for obtaining federal funds in the current environment involves selecting an
appropriate potential partner and competing for funding. Potential partners who could
attract funding at this time might include manufacturers of elements of alternative
vehicles or third parties such as universities.

Specifically we noted the ―stimulus bill‖, the American Reinvestment and Recovery Act
of 2009, is the source that most people would point to as the source for funding energy
projects at this time. The energy funding in the stimulus bill (approximately $37 billion)
was significantly greater than the annual DOE budget.

Within the stimulus bill, there are three potential sources of funding:

          Funding for alternative transportation technologies and fleets;
          Loan guarantees for investment in battery technology and demonstration; and
          Grants for development of technology associated with the smart grid.

There also may be a new Energy Act passed in 2009. The policy debates concerning
the regulation of carbon emissions have captured much of the attention around this bill.
However, more broadly, the Energy Act of 2009 (which has only passed the House of
Representatives at this point) seeks to sharpen the focus of energy policy onto
electrification. Development of EVs will be a centerpiece of this new policy if passed.




                                             18
Electrification of Postal Service                                                 DA-WP-09-001
 Delivery Vehicles




At present, the DOE funding opportunity available is as follows:

Opportunity: Recovery Act - Smart Grid Demonstrations

Reference number: DE-FOA-0000036

Issue date: 06/25/2009

Response due: 08/26/2009

Award: Approximately $615,000,000 in federal funds is expected to be available for
new awards under this announcement. Funds are available for individual agencies of
up to $100 million for smart grid demonstrations and $50 million for utility load shifting.

The DOE, Office of Electricity Delivery and Energy Reliability, issued this competitive
Funding Opportunity Announcement for Smart Grid Demonstrations from funds made
available by The American Recovery and Reinvestment Act of 2009. Smart Grid
projects include regionally unique demonstrations to verify smart grid technology
viability, quantify smart grid costs and benefits, and validate new smart grid business
models at a scale that can be readily adapted and replicated around the country.

Projects to demonstrate energy storage technologies include battery storage for utility
load shifting, wind farm diurnal operations, ramping control, frequency regulation
services, distributed energy storage, compressed air energy storage, and demonstration
of promising energy storage technologies.

The cost share must be at least 50 percent of the total allowable costs for
demonstration and commercial application projects. DOE anticipates making awards
with project periods of 3 to 5 years.

Other Sources of Funding

The leading state in providing incentives for supporting an electric vehicle program is
California, although there are other states that have provided incentives as well. The
state of Washington has been prominent in this respect and New York State is a third
example. Michigan and Pennsylvania might represent other examples of state support
programs. One of the aspects of the current evolving energy conservation program that
makes it dynamic are State Energy Conservation Programs and the Energy
Conservation Block Grant programs. Taken together, these programs represent
approximately $12 billion in funding that states are currently applying for. There is a
great deal of discretion in these programs and activities such as infrastructure support
and training might qualify under some programs.




                                             19
Electrification of Postal Service                                                                  DA-WP-09-001
 Delivery Vehicles




     APPENDIX A: WORK PERFORMED AND ADDITIONAL STUDIES IN THIS AREA


Work Performed

In conducting this review, we analyzed the Postal Service’s vehicle operational data,
information provided by academia, and relevant industry data; and considered subject
matter expert viewpoints. Specifically, we:

         Contracted with subject matter experts to review the current state of EVs and key
         issues that would impact the Postal Service if they use them.

         Interviewed subject matter experts from the DOE and Federal Energy Regulatory
         Commission. We also interviewed experts on EV and battery technology from
         Idaho National Laboratory and the Universities of Delaware and Texas.

         Contacted original equipment manufacturers and purchase companies to identify
         costs and capabilities.

          Contacted organizations in the energy industry to identify capabilities and
         opportunities associated with V2G applications.

         Conducted surveys with battery manufacturers to identify types of batteries
         produced, performance, and manufacturing capability.

         Analyzed Postal Service data to assess the impact of EV loads on the facility
         infrastructure and operational impact.


Other Studies in this Area

In October 2008, the Government Accountability Office (GAO) issued a report17 that
concluded federal agencies had mixed results in meeting the energy reduction targets
for fleets in FY 2007. In June 2009, a subsequent GAO report18 stated that agencies
will face challenges related to cost, availability, planning, and federal requirements
when considering incorporation plug-ins into the federal fleet.

In May 2009, Michael Ravnitzky of the Postal Regulatory Commission issued a report 19
concluding that electrification of the Postal Service fleet should be an integral part of the
nation’s energy goals. According to the report, most daily mail delivery routes are short,

17
   Federal Energy Management: Agencies Are Acquiring Alternative Fuel Vehicles but Face Challenges in Meeting
Other Fleet Objectives, GAO-09-75R, October 2008.
18
   Federal Energy and Fleet Management: Plug-in Vehicles Offer Potential Benefits, but High Costs and Limited
Information Could Hinder Integration into the Federal Fleet, GAO-09-493, June 2009.
19
   Electric Drive Vehicles for Mail Delivery: Identifying Key Issues, Michael Ravnitzky – Postal Regulatory
Commission, May 2009


                                                      20
Electrification of Postal Service                                                  DA-WP-09-001
 Delivery Vehicles




repetitive, and well-defined and include many stops, making the Postal Service delivery
fleet a prime application for electric drive vehicles. Also, the electrification of the Postal
Service fleet could significantly reduce gasoline and maintenance expenses while
reducing the fleet’s carbon footprint. Furthermore, the Postal Service could earn
substantial revenue in the wholesale electric markets by aggregating and offering on the
wholesale electric market access to ancillary electric power from the vehicle batteries.
Off-peak charging, grid operator control, and the availability of aggregated storage
capacity work together to enhance the ability of the nation’s electrical grid to incorporate
renewable sources of electricity.20




20
     Sources like wind and solar power.



                                              21
Electrification of Postal Service                                                          DA-WP-09-001
 Delivery Vehicles



                            APPENDIX B: CASH FLOW SCENARIO – 3,000 VEHICLES
           Postal Service Purchases and Maintains Vehicles with Grid Revenue and DOE Program Grant




                                                     22
Electrification of Postal Service        DA-WP-09-001
 Delivery Vehicles




                                    23
